No. 21-152

IN THE

~upreme <!Court of tbe Wniteb ~tate~
ESTATE OF MADISON JODY JENSEN,
EX REL. JARED JENSEN,

Petitioner,
V.

KENNON TUBBS,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Reply in Support of Certiorari in Estate of Jensen ex rel. Jensen v. Tubbs, No. 21152, were served via overnight mail on all parties required:
Cortney Kochevar
NELSON

I NAEGLE

222 South Main Street, Suite 17 40
Salt Lake City, UT 84101
(385) 292-4400
ckochevar@nelsonnaegle.com

Counsel for Respondent
I declare under penalty of perjury that the foregoi

Date: September 17, 2021

e and correct.

